03/23/2021 "See News Release 011 for any Concurrences and/or Dissents."

dLourt of fljojSfafe of ^auxzxnm
PAUL POUPART
No.2021 -KH-00210
VS.
STATE OF LOUISIANA, ET AL.

IN RE: Paul M. Poupart - Applicant Plaintiff; Applying For Supervisory Writ, Parish
of Jefferson, 24th Judicial District Court Number(s) 09-4796, Court of Appeal, Fifth
Circuit, Number(s) 20-KH-360;

March 23,2021
/

Writ application denied.
JLW
SJC
JTG
WJC
JBM
PDG
Hughes, J., would grant.

i

i

s’* -

t 4

\

PAUL POUPART

NO. 20-KH-360

VERSUS

FIFTH CIRCUIT

STATE OF LOUISIANA, ET AL

COURT OF APPEAL
STATE OF LOUISIANA

November 16, 2020
Susan Buchholz
First Deputy Clerk

IN RE PAUL POUPART
APPLYING FOR SUPERVISORY WRIT FROM THE TWENTY-FOURTH JUDICIAL DISTRICT
COURT, PARISH OF JEFFERSON, STATE OF LOUISIANA, DIRECTED TO THE HONORABLE
CORNELIUS E. REGAN, DIVISION "B", NUMBER 09-4796

Panel composed of Judges Fredericka Homberg Wicker,
Marc E. Johnson, and Robert A. Chaisson

WRIT DENIED
Relator, Paul Poupart, seeks review of the district court’s denial of his fifth
application for post-conviction relief. For the reasons that follow, we find no error
in the district court’s ruling.
On October 13, 2009, relator was charged by bill of information with public
intimidation, in violation of La. R.S. 14:122. On January 12, 2011, a jury found
defendant guilty as charged. Relator was adjudicated a fourth felony offender on
April 29, 2011, and was thereafter sentenced, pursuant to the provisions of La. R.S.
15:529.1, to twenty years imprisonment at hard labor without benefit of probation
or suspension of sentence. On February 28, 2012, this Court affirmed relator’s
conviction and sentence, and on October 8, 2012, the Louisiana Supreme Court
denied relator’s writ application challenging this Court’s February 28, 2012
decision. SeeStatev. Poupart, 11-710 (La. App. 5 Cir. 2/28/12), 88 So.3d 1132,
writ denied, 12-705 (La. 10/8/12), 98 So.3d 867.

83

;

In August of 2020, relator filed his fifth application for post-conviction relief
and a supplemental memorandum in support of his application. On August 19,
2020, the district court denied relator’s application for post-conviction relief as
untimely and also found that his claims were procedurally barred as successive and
repetitive. On September 2, 2020, the district'court likewise denied relator’s
supplement to his application, stating that “collateral review has been exhausted
and further review is precluded.”
. According to La. C.Cr.P. art. 930.8(A), “no application for post-conviction
relief, including applications which seek an out-of-time appeal, shall be considered
if it is filed more than two years after the judgment of conviction and sentence has
become final under the provisions of Article 914 or 922,” unless an enumerated
exception applies. We have reviewed the claims raised by relator in his application
for post-conviction relief and supplement and find that relator has failed to
establish any exception to the two-year mandatory time limit. Therefore, we find
no error in the district court’s determination that relator’s application for postconviction relief is untimely.
We further agree with the district court’s determination that relator’s claims
are procedurally barred pursuant to La. C.Cr.P. art. 930.4 as successive and/or
repetitive. As noted by the Louisiana Supreme Court, relator has exhausted his
right to state collateral review and fails to show that any exception permits his
successive filing. See State ex rel. Poupart v. State, 17-1237 (La. 9/15/17), 224
So.3d 960, and Poupart v. State, 20-364 (La. 6/3/20), 296 So.3d 1067.
Accordingly, we deny relator’s writ application.
Gretna, Louisiana, this 16th day of November, 2020.
RAC
FHW
MEJ

2

84

S
TWENTY-FOURTH JUDICIAL DISTRICT COURT
PARISH OF JEFFERSON
STATE OF LOUISIANA
DIVISION “B”

. NO. 09-4796
STATE OF LOUISIANA
VERSUS
PAUL POUPART
FILED:

A

!

^DEPUTY CLERIC
ORDER

This matter comes before the court on the petitioner’s NOTICE OF INTENT lg
FOR FIXING TIME AND EXTENSION OF TIME FOR
TAKE WRITS. luTOTTON
______________
FILING WRTTS. STAMPED AS FILED SEPTEMBER 16,2020.
.
The defendant seeks writs from this court’s denial of his fifth application for post­
conviction relief on August 19, 2020.
.
Uniform Rules of the Courts of Appeal Rule No. 4-3 provides that a writ return date must
be within 30 days of the ruling sought to be reviewed. The court finds good cause to consider
petitioner’s notice as timely.
. t .
,
Rule No. 4-3 provides that the court shall set a reasonable return date and that the court
may extend the time for filing the application upon a proper showing. The defendant requests an
“
extended return date which the court will grant.
Accordingly,
IT IS ORDERED BY THE COURT that the defendant’s wiit application is returnable
to the Fifth Circuit Court of Appeal on or before October 12,2020.
020.-

Gretna, Louisiana, this

^°

JVBG E

CT

PLEASE SERVE:
iONiSTPaul Poupart, #357073, Hunt Corr. Center, P.O. Box 174, St. Gabriel, LA 7077i

°CT 01 2020
Hunt co&;? off,ce

1

1
|UN A.CECtNHEIMKlt

09/22/2020 16:10:49 CERTIFIED TRUE COPY - Pg:1 of 1 - Jefferson Parish Clerk of Court - 10:2096236

48

